          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                       Catalyst for Improving the Environment


Quality Control Review




        Quality Control Review of
        Leland O’Neal, CPA,
        Single Audit for Town of
        Worthington, West Virginia, for
        Fiscal Year Ended June 30, 2004
        Report No. 09-2-0195

        July 14, 2009
Report Contributors:          Leah Nikaidoh
                              Lisa McCowan




Abbreviations

AICPA                  American Institute of Certified Public Accountants
Assistance Agreement   EPA Assistance Agreement No. C546600-01
Auditor                Leland O’Neal, CPA
CFR                    Code of Federal Regulations
CPA                    Certified Public Accountant
CPE                    Continuing Professional Education
EPA                    U.S. Environmental Protection Agency
FY                     Fiscal Year
GAS                    Government Auditing Standards
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
Recipient              Town of Worthington, West Virginia
SEFA                   Schedule of Expenditures of Federal Awards
                        U.S. Environmental Protection Agency                                                     09-2-0195
                                                                                                              July 14, 2009
                        Office of Inspector General


                        At a Glance
                                                                               Catalyst for Improving the Environment


Why We Did This Review                 Quality Control Review of Leland O’Neal, CPA,
                                       Single Audit for Town of Worthington,
One of the responsibilities of
Federal agencies is to conduct         West Virginia, for Fiscal Year Ended June 30, 2004
quality control reviews of
selected audits made by non-            What We Found
Federal auditors. In reviewing
                                       The single audit report for the Town of Worthington, West Virginia, for the
the single audit for the Town of
                                       fiscal year ending June 30, 2004, was substandard. According to the Uniform
Worthington, West Virginia, for
the fiscal year ending June 30,        Quality Control Guide for A-133 Audits, issued by the President’s Council on
2004, we found a lack of               Integrity and Efficiency, a substandard audit is defined as one that contains
                                       significant audit deficiencies that could potentially affect the audit results. The
adequate detail in describing the
                                       audit did not meet general, field work, and reporting standards as required by
reported deficiencies and how the
                                       the Government Auditing Standards. For example,
related recommendations would
address the findings reported.             •   The audit documentation did not contain sufficient evidence that the
                                               audit was adequately planned and compliance testing was not
Background                                     supported by evidential matter.

On June 8, 2000, the U.S.                  •   The audit report did not contain a finding that the recipient’s
Environmental Protection                       accounting system was inadequate when it should have, and did not
Agency (EPA) awarded the Town                  include a corrective action plan from the recipient.
of Worthington, West Virginia, a           •   The auditor did not meet Federal continuing education requirements.
grant for $1.2 million for
designing and constructing a           As a result, the audit report could not be used for its intended purpose, which
drinking water system. Federal         was to provide the Federal agency with assurance that the grant funds were
regulations require entities that      spent in compliance with Federal requirements.
expend more than $500,000 of
Federal funds in a given year to        What We Recommend
have a single audit conducted.
Leland O’Neal, CPA, conducted          We recommend that EPA’s Region 3 Regional Administrator:
the single audit for the fiscal year
ending June 30, 2004.                      •    Meet with the Town of Worthington officials to ensure that the Town
                                                understands Office of Management and Budget Circular A-133
                                                requirements, and its obligations to meet these requirements.
For further information, contact           •    Designate the Town of Worthington as a high-risk grant recipient, in
our Office of Congressional,
Public Affairs and Management
                                                accordance with Title 40 Code of Federal Regulations Part 31.12,
at (202) 566-2391.                              should the recipient receive any new EPA awards.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090714-09-2-0195.pdf
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                     July 14, 2009

MEMORANDUM
SUBJECT:           Quality Control Review of
                   Leland O’Neal, CPA,
                   Single Audit for Town of Worthington, West Virginia,
                   for Fiscal Year Ended June 30, 2004
                   Report No. 09-2-0195


FROM:              Melissa M. Heist
                   Assistant Inspector General for Audit

TO:                William C. Early
                   Acting Regional Administrator, Region 3


This is our final report on the quality control review of the single audit of the Town of
Worthington, West Virginia, for the year ended June 30, 2004, performed by Leland O’Neal,
CPA. The report represents the opinion of the Office of Inspector General (OIG), and the
findings contained in this report do not necessarily represent the final U.S. Environmental
Protection Agency (EPA) position. The OIG has no objection to the release of this report.
We would like to acknowledge the cooperation and assistance provided by Region 3 staff
during the course of our review.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $152,290.

On February 13, 2009, we issued a draft report to the recipient and the single auditor for
comment. Region 3 incorporated responses from the recipient, and responded to our report
on April 24, 2009. The single auditor did not respond to the draft report. We modified our
recommendations based upon Region 3’s response to the draft report. We have included an
analysis of Region 3’s response in the appropriate sections of this report. Region 3’s entire
response is included as Appendix B.
Action Required

In accordance with EPA Manual 2750, you are required to submit a written response to our
office within 90 days of report date. Your response should include a corrective action plan,
including milestones and dates. This report will be available at http://www.epa.gov/oig.

If you have any questions or need additional information, please contact Janet Kasper at
(312) 886-3059 or kasper.janet@epa.gov, or Leah Nikaidoh at (513) 487-2365 or
nikaidoh.leah@epa.gov.


Enclosure
Quality Control Review of Leland O’Neal, CPA, Single Audit for                                                               09-2-0195
Town of Worthington, West Virginia, for Fiscal Year Ended June 30, 2009




                                    Table of Contents

Chapters
   1     Introduction ...........................................................................................................      1
              Purpose..............................................................................................................    1
              Background........................................................................................................       1

   2     Noncompliance with Field Work Standards........................................................                               3
              Planning Not Documented .................................................................................                3
              Insufficient Evidential Matter ..............................................................................            5
              Lack of Documentation ......................................................................................             8
              Major Program Compliance Testing Not Done for Recipient.............................                                     9
              Recommendations.............................................................................................             9
              Auditee Response and OIG Analysis ................................................................                      10

   3     Noncompliance with Reporting Standards .........................................................                             12
              Inadequate Recipient Accounting System Not Reported...................................                                  12
              No Corrective Action Plan..................................................................................             13
              Federal Criteria Not Cited ..................................................................................           13
              Schedule of Expenditures of Federal Awards Incomplete .................................                                 13
              Corrective Actions..............................................................................................        13

   4     Noncompliance with General Standards ............................................................                            14
              Auditee Response and OIG Analysis ................................................................                      15


Schedules
   1     Town of Worthington Single Audit Findings and Relevant Federal Criteria....                                                  16

   2     Status of Recommendations and Potential Monetary Benefits ........................                                           18


Appendices
   A     Scope and Methodology.......................................................................................                 19

   B     Auditee’s Response .............................................................................................             20

   C     Distribution ............................................................................................................    22
                                                                                              09-2-0195




                                            Chapter 1
                                             Introduction
Purpose
                   We conducted a quality control review of the single audit1 for the Town of
                   Worthington, West Virginia (recipient), for the fiscal year ended June 30, 2004.
                   The audit was performed by Leland O’Neal, Certified Public Accountant (CPA).
                   The purpose of the quality control review of a single audit is to determine whether
                   the audit was conducted in accordance with generally accepted government
                   auditing standards and reporting requirements of Office of Management and
                   Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-
                   Profit Organizations, including its related compliance supplement; and other
                   applicable audit guidance.

                   OMB Circular A-133 § 400 (3) states that one of the responsibilities of Federal
                   agencies is to obtain or conduct quality control reviews of selected audits made by
                   non-Federal auditors. In reviewing the single audit for the Town of Worthington
                   for the year ending June 30, 2004, we found a lack of adequate detail describing
                   the reported deficiencies and how the related recommendations would address the
                   findings reported. In addition, we found that the Schedule of Expenditures for
                   Federal Awards (SEFA) did not meet the requirements of OMB Circular A-133
                   § 310(b). As a result, we initiated a quality control review.

                   As part of performing a quality control review, the reviewer is to determine
                   whether a noncompliance results in a substandard audit or a technically deficient
                   audit. A substandard audit notes significant audit deficiencies that could
                   potentially affect the audit results, thus making the report unusable for fulfilling
                   one or more audit objectives. A technically deficient audit identifies deficiencies
                   requiring corrective action that do not appear to affect the audit results.

Background
                   EPA awarded EPA Assistance Agreement No. C546600-01 (Assistance
                   Agreement) to the Town of Worthington on June 18, 2000. The assistance
                   agreement was awarded for the project period of June 18, 2000, through
                   September 30, 2004, for a total of $1,286,787. EPA’s participation was
                   96 percent, or $1,235,316, under this grant. The purpose of the assistance
                   agreement was to provide funding to design and construct a drinking water
                   system, including replacing the existing water lines in the Town of Worthington,


1
    The term “single audit” means an audit conducted in accordance with OMB Circular A-133.


                                                         1
                                                                                                     09-2-0195


                 replacing existing water meters in the Four States Public Service District, and
                 extending a new drinking water service for certain areas in the district.

                 Under OMB Circular A-133, non-Federal entities that expend Federal funds of
                 $500,000 in a given year are required to have a single audit conducted. A single
                 audit has two main objectives: (a) to conduct an audit of the entity’s financial
                 statements and the report on the SEFA, and (b) to conduct a compliance audit of
                 Federal awards expended during a fiscal year. OMB Circular A-133 requires that
                 auditors comply with generally accepted government auditing standards when
                 conducting the audit.2

                 Under Title 40, Code of Federal Regulations (CFR), Part 31.12, a grantee may be
                 considered “high-risk” if the awarding agency determines that the grantee has
                 financial or grants management concerns. The awarding agency can impose
                 special conditions or restrictions on grant awards accordingly.

                 In December 2004, the recipient entered into a contract with Leland O’Neal, CPA
                 (auditor) to conduct a single audit of the Town of Worthington, West Virginia, for
                 the year ended June 30, 2004. The auditor signed the report on December 29,
                 2004.




2
  The audit was for the year ending June 30, 2004. The June 2003 version of Government Auditing Standards is
applicable to financial audits with performance periods ending after January 2004.



                                                       2
                                                                                   09-2-0195




                               Chapter 2
      Noncompliance with Field Work Standards
         The single auditor did not meet field work standards when conducting the Fiscal
         Year (FY) 2004 single audit of the Town of Worthington, West Virginia.
         Specifically, the audit documentation did not demonstrate that the auditor:

            •   Adequately planned the audit,
            •   Adequately supported compliance testing with evidential matter,
            •   Adequately supported reported conclusions, and
            •   Performed compliance testing at the Town of Worthington.

         Government Auditing Standards (GAS) have three field work standards that
         require the auditor to: (a) adequately plan the audit work, (b) obtain a sufficient
         understanding of internal control to plan the audit, and (c) obtain sufficient
         evidence to provide a reasonable basis for the opinion rendered in the audit report.

         To conduct the audit, the auditor relied upon a series of standard checklists from
         the Practioners Publishing Company’s Guide to Audits of Local Governments.
         The intent of the checklists is to provide a standardized method to conduct various
         aspects of the single audit, such as planning and internal control testing. Other
         than the checklists, little other documentation supported the single auditor's
         planning decisions, compliance testing, and reported conclusions.

         The audit documentation did not provide sufficient information to show that the
         single auditor met GAS standards. Therefore, EPA cannot rely on the findings
         and conclusions presented in the single audit report.

Planning Not Documented

         The single auditor did not adequately document his decisions when planning the
         audit. The purpose of planning is to gain an understanding of the entity’s internal
         controls in order to assess the risk of material misstatement and to design
         additional audit procedures. The planning documentation the auditor prepared
         was not sufficient to determine whether GAS standards were met.

         GAS has several requirements that pertain to planning the audit that need to be
         met for an audit to comply with GAS.

            •   GAS 4.03 requires the auditor to gain a sufficient understanding of
                internal control in order to plan the audit and design audit procedures.




                                          3
                                                                        09-2-0195


   •   GAS 4.17 requires auditors to design the engagement to provide
       reasonable assurance of detecting material misstatements that result from
       violations of contract or grant agreement provisions.

The auditor relied upon checklists to plan the audit; we found little other
documentation to demonstrate the auditor’s understanding of internal controls or
what audit procedures the auditor decided were necessary based on that
understanding. Below are some examples of the checklists and deficiencies.

   ●   Form SAP-1: Audit Program for Federal Award Programs - General
       Procedures - The first seven program steps relate to planning the
       assignment. The audit program had preparer initials next to each step to
       indicate that the step was completed, but did not include indices to
       supporting documentation that showed what work was performed. Some
       documents to support the audit steps, such as board meeting minutes and
       the engagement letter, were included in the audit documentation but were
       not labeled or indexed. For other steps, audit documentation existed that
       could have been used to complete the analysis, but no evidence existed
       that the analysis was actually performed. For example, one of the
       planning steps requires the auditor to compare the grant budget to actual
       expenditures to identify any violations or over-expenditures. The auditor
       indicated on the audit program that the step was performed, and the audit
       documentation included a copy of the grant budget. However, we found
       no evidence that the auditor compared the budget to actual expenditures or
       what conclusions the auditor drew from the analysis. This analysis should
       have influenced the auditor’s testing of allowable activities and cost
       controls.

   ● Form GCX-3a: Planning Form - Audits of Federal Award Programs -
     This checklist is to be used to gather planning information on an auditee’s
     operations, organization, and internal controls as they pertain to selected
     Federal programs. The single auditor did not adequately document
     conclusions on this checklist or identify related supporting documentation.
     For example, Question 31 asks if the flow of information through the
     financial reporting system as it applies to Federal programs is adequately
     documented. The auditor answered “no” to the question. However, no
     audit documentation showed how the auditor arrived at that answer. The
     checklist refers to another checklist, GCX-3, as the basis for the response
     to Question 31, but that checklist was not included in the audit
     documentation. The instructions for this question also state that if the
     single auditor answered “no,” then the single auditor needed to either
     complete two additional checklists or prepare a memorandum covering the
     flow of information for the Federal programs. The auditor did not provide
     any such documentation. Therefore, we cannot determine how the auditor
     concluded that the flow of information through the financial reporting




                                4
                                                                                      09-2-0195


                  system was not adequately documented or how that conclusion influenced
                  the audit testing.

                  Although the single auditor identified in the audit documentation concerns
                  regarding the adequacy of prior years’ audits, the auditor did not report
                  this issue in the FY 2004 single audit report. The auditor used checklist
                  GCX-3a to gather the information needed to understand the recipient’s
                  internal control system and compliance with laws and regulations. For
                  Step 21, the auditor was asked to describe the nature and cause of the
                  misstatements and programs affected if material misstatements have been
                  noted in prior audits. The auditor indicated on the checklist “initial years
                  not properly audited.” The auditor did not provide any other information
                  or documentation to elaborate on the nature of this problem and how this
                  issue would impact the audit of the financial statements and the report on
                  major Federal program compliance. As a result, we cannot determine if
                  this matter was adequately resolved or if it should have been reported as
                  an internal control weakness in the FY 2004 single audit report.

              ● Form GCX-5d: Considering Fraud Risk Factors for an Audit of Federal
                Award Programs - This checklist is used to document the single auditor’s
                consideration of whether information that has been gathered about the
                auditee and its operations indicate the presence of one or more fraud risk
                factors. The single auditor indicated that there were some risk factors for
                fraud, but did not provide any evidence of how he addressed the risk
                factors in designing the audit. For example, in Part 1 - Fraudulent
                Financial Reporting (Opportunities) of the checklist, the single auditor
                provided several notations in the Optional Comments column, including
                “N/A,” “RIC VI need to meet payroll,” “RIC,” “RIC VI,” “Bldg Acq.,”
                and “RIC in control.” Since there was no further explanation of the
                comments, it was not clear what risk factors the auditor identified, how
                they were identified, or how the conclusions impacted the audit design.

Insufficient Evidential Matter
           The single auditor did not provide sufficient evidential matter to support the
           conclusions on internal controls and compliance with law, regulations, and grant
           agreements. GAS 4.03(c) requires the auditor to obtain sufficient competent
           evidential matter to provide a reasonable basis for the report’s opinion. The
           auditor concluded that the Town of Worthington did not comply with Federal
           regulations and that the internal controls were not adequate. However, the
           documentation contained limited or no evidence that the auditor tested those areas
           for which Federal guidelines require testing. As a result, the documentation did
           not contain the evidence needed to support the conclusion in the audit report.
           The single auditor used a standardized checklist to assess and test internal controls
           for the EPA grant. The checklist, Internal Control System - Federal Award
           Programs (Form SCX-8a), allows the single auditor to assess internal controls for


                                             5
                                                                               09-2-0195


individual Federal programs selected for audit. The checklist is divided into
sections that correspond to the OMB Circular A-133 2003 Compliance
Supplement audit objectives for the 14 compliance requirements. For those
compliance requirements applicable to a Federal program, the single auditor is to
assess if the overall objectives of related internal controls have been met, and to
conduct tests on the internal controls. The checklist instructions state that as part
of internal control testing the auditor should provide references to memos or other
worksheets to document evidence of tests performed.

The auditor did not correctly assess which of the 14 compliance areas were
applicable to the Town of Worthington. The auditor selected Real Property
Acquisition and Relocation Assistance as applicable for reviewing the purchase of
a building by the grant recipient. However, the auditor should have selected
Equipment and Real Property Management. The intent of the Real Property
Acquisition and Relocation Assistance compliance area is to assess a
government’s acquisition of real property for a Federal program or project
resulting from displacement, as allowable under the Uniform Relocation
Assistance and Real Property Acquisition Policies Act of 1970, as amended.
Since the purchase of the building was not part of a relocation effort due to
displacement, the single auditor should have assessed this acquisition under the
Equipment and Real Property Management compliance area.

No Evidence of Testing

While the auditor identified nine compliance areas as being applicable to the
Town of Worthington, the audit documentation did not show any evidence of
testing for three compliance areas, as shown in Table 2-1.

Table 2-1: Analysis of Compliance Supplement Requirements
                                                         Limited
                                        No Evidence Documentation
 Compliance Supplement Area Tested       of Testing     of Testing
 Allowable Activities                                       X
 Allowable Costs                                            X
 Cash Management                                            X
 Davis-Bacon Act                             X
 Eligibility                                 X
 Matching, Level of Effort                                  X
 Procurement                                 X
 Real Property Acquisition, Relocation                      X
 Reporting                                                  X
 Total                                        3              6
 Source: Selected audit areas from single audit documentation; noncompliance
 information based upon Office of Inspector General (OIG) analysis




                                     6
                                                                          09-2-0195


For example:

   ● To test compliance with the Davis-Bacon Act, the auditor is required to
     determine whether the non-Federal entity notified contractors and
     subcontractors of the requirements to comply with the Davis-Bacon Act
     and obtained copies of certified payrolls. The auditor marked on the
     checklist that controls were effective, but audit documentation contained
     no evidence to support the conclusion or what testing was performed.

   ● To test compliance for procurement, the auditor is required to determine
     whether procurements were made in compliance with the provisions of
     OMB Circular A-102, Grants and Cooperative Agreements with State and
     Local Governments, and other procurement requirements specific to an
     award. The auditor marked on the checklist that matters controlled by the
     project management contractor were not adequate. However, no audit
     documentation or analysis supported this conclusion or what testing was
     performed.

Lack of Evidential Support

For six compliance areas tested, there was an overall lack of evidential support for
the testing performed and to support the applicability of testing to compliance
supplement requirements and the outcome of the test results as presented in the
single audit report. For example:

   ● The single auditor assessed the internal controls as ineffective for three
     compliance areas: Allowable Activities, Allowable Costs, and Reporting.
     For the first two compliance areas, the single auditor stated in the
     comments column that all transactions were examined. For the reporting
     compliance area, the single auditor stated in the comments column that
     this area was the responsibility of the project administration contractor.
     While some audit documentation could have been attributed to these three
     compliance areas, the single auditor did not specifically identify or
     document any testing of related internal controls, or how the results of
     testing related to specific major program compliance supplement
     requirements. Therefore, we could not determine if the single auditor’s
     assessment is valid.

   ● The single auditor assessed the internal controls to be ineffective for Cash
     Management and Matching, Level of Effort, Earmarking requirements and
     reported a finding for each requirement (Findings 04-04 and 04-05).
     When we initially reviewed the single audit documentation provided, we
     could not readily identify the documentation that related to these findings.
     Only through additional written explanation provided by the single auditor
     were we able to identify the worksheet that the single auditor prepared to
     assess this compliance area.



                                 7
                                                                                  09-2-0195


Lack of Documentation
         The audit did not comply with the GAS standard for audit documentation. GAS
         4.22 requires that auditors prepare documentation in sufficient detail to provide a
         clear understanding of the work performed, the audit evidence obtained, and the
         conclusions reached. As described in the Evidential Matters section of this report,
         audit documentation was not sufficient for us to determine how the auditor
         planned the audit or the nature and extent of testing that he performed. As a
         result, the audit of the Town of Worthington did not meet the standard for
         documentation.

         The American Institute of Certified Public Accountants (AICPA) standards state
         that audit documentation is an essential element of audit quality and provides the
         principal support for the auditor’s report. While the standards do allow for
         professional judgment in regards to the quantity, type, and content of audit
         documentation, the standards do state that audit documentation should enable an
         experienced auditor to understand:

            •   The nature, timing, and extent of audit procedures;
            •   The results of the audit procedures and evidence obtained; and
            •   The conclusions reached on significant matters.

         As discussed in the Evidential Matters section of this report, the audit
         documentation often did not identify what procedures the auditor performed to
         evaluate compliance with Federal requirements. While the auditor did indicate on
         the checklists whether he concluded that controls over specific areas were
         effective or ineffective, because we could not identify related audit documentation
         it was not always clear to us how the auditor reached those conclusions.

         The single auditor issued an adverse opinion on the report of major program
         compliance. From the documentation that he provided, we could not determine
         how he arrived at an adverse opinion. In a conference call with us, the auditor
         stated that he issued an adverse opinion because he had to reconstruct the Town of
         Worthington’s financial records. Without this explanation, we would not been
         able to determine why he issued an adverse opinion on the report on major
         program compliance.

         The single auditor provided a variety of documents to support his audit work, but
         we could not easily relate these documents to audit steps performed. The
         documents were missing specific information, such as the purpose, source, and
         conclusions. For example, a copy of the Town of Worthington’s cash receipts
         journal for the EPA project was included in the audit documentation. No
         indication existed on this document as to its purpose, who prepared the document,
         or what audit steps were performed to evaluate the information.




                                          8
                                                                                    09-2-0195


          Similar issues regarding the completeness of the audit documentation were
          identified in the single auditor’s peer review conducted for the fiscal year ended
          December 31, 2004. The reviewer found the practitioner to be in substantial
          compliance, but identified the following issues that he provided separately in a
          letter to the single auditor:

                 The firm’s quality control policies and procedures require the
                 engagement partner to document planning stages of audit
                 engagements in the area of assessment of fraud risk factors within
                 the internal control structure and planning materiality. During
                 our review of engagements, we noted instances where this
                 documentation was partial and incomplete. We satisfied ourselves
                 that the engagement partner appropriately addressed the issues
                 that did not completely document the conclusions.

Major Program Compliance Testing Not Done for Recipient
          No evidence existed in the audit documentation that the auditor tested compliance
          with program requirements at the Town of Worthington. The auditor focused his
          review on the organization that administered the grant for the town. The auditor
          did not evaluate the town’s oversight of the contractor. The Town of
          Worthington had a contract with West Virginia’s Region VI’s Planning and
          Development Council to administer the water project, including the grant. The
          auditor’s report stated that the contractor assumed responsibility for compliance
          as one consideration in its contract as project administrator. The single auditor
          assessed the contractor’s compliance with program requirements, but no evidence
          existed that he assessed the Town of Worthington’s compliance.

          As part of the procurement compliance testing, the auditor is to evaluate the grant
          recipient’s monitoring of contracting activities. One of the questions the auditor
          is to consider is whether management has a policy to periodically review
          contractor activities and take follow-up action for identified problems. The
          auditor indicated on the checklist that a policy did not exist, but no indication
          existed that additional testing was performed to address the issue. In the report,
          the auditor expressed concerns about the contractor’s management of the grant,
          but no indication existed about what the Town was doing to oversee the
          contractor.

Recommendations

          We recommend that EPA’s Region 3 Regional Administrator:

          2-1    Meet with the Town of Worthington officials to ensure that the Town
                 understands OMB Circular A-133 requirements and its obligations to meet
                 these requirements.



                                            9
                                                                                    09-2-0195


         2-2      Designate the Town of Worthington as a high-risk grant recipient, in
                  accordance with 40 CFR 31.12, should the recipient receive any new EPA
                  awards. As part of this process, Region 3 should conduct a pre-award
                  financial management analysis of the recipient, to ensure that the recipient
                  has the ability to manage its grant funds in accordance with Federal
                  regulations.

Auditee Response and OIG Evaluation
         Region 3 coordinated with the Town of Worthington, West Virginia, and
         provided a response to the draft report on April 24, 2009. Region 3 spoke with
         the Town Mayor on two occasions to discuss the recipient’s responsibilities under
         OMB Circular A-133.

         In the draft report, we had two recommendations that the Region did not agree to,
         as follows:

         •     Require the Town of Worthington and the single auditor to develop a plan to
               address the deficiencies identified in the single audit, including additional
               planning and testing that may need to be performed.

         •     Require the Town of Worthington to submit a revised single audit report for
               FY 2004.

         Since the OIG determined that the single audit report was substandard, Region 3
         did not believe that addressing the audit report deficiencies and reissuing the
         single audit report would be the best options. Instead, Region 3 proposed that, for
         future awards, the Town of Worthington would be designated as high-risk, in
         accordance with 40 CFR Part 31.12, and appropriate special conditions would be
         imposed upon the Town.

         Under 40 CFR Part 31.12, a grantee may be considered “high-risk” if the
         awarding agency determines that the grantee has financial or grants management
         concerns. The awarding agency can impose special conditions or restrictions on
         grant awards accordingly. As discussed under Major Program Compliance Not
         Tested section, the single auditor did not perform major program compliance
         testing for the Town of Worthington. Therefore, we have no assurance that the
         Town of Worthington had the programmatic ability to manage its assistance
         agreements. Also, as discussed in Chapter 3, the recipient was unable to prepare
         its Schedule of Expenditures of Federal Awards and related notes because the
         recipient did not have adequate accounting records. Given these concerns, we
         agree that it would be appropriate for Region 3 to make a high risk determination
         for the Town of Worthington for any future grant awards.




                                           10
                                                                          09-2-0195




Region 3, when it was performing close-out of this grant, stated that it contacted
the single auditor. Region 3 discussions with the single auditor were not
productive. Region 3 questioned the quality of the single audit report, and did not
place any reliance on the findings. Instead, Region 3 performed its own review of
the grant final payment package and determined that all of the costs claimed by
the Town were eligible. Region 3 also noted that, as part of grant oversight,
Region 3 had the West Virginia Bureau of Public Health perform grant
management oversight, including review of procurements and project inspections.

The single auditor did not provide any formal response to the draft report to
Region 3 for consideration.

Region 3’s discussions with the Town of Worthington regarding its
responsibilities under OMB Circular A-133 addressed Recommendation 2-1.
Therefore, no further action is required for this recommendation.

In light of Region 3’s response and our document review, we deleted
Recommendations 2-2 and 2-3 that were presented in the draft report, and
incorporated Region 3's suggested recommendation for high-risk designation. We
reviewed project officer documentation related to Region 3’s review and close-out
of the grant. Region 3’s review of the final grant payment package, and oversight
performed by the West Virginia Bureau of Public Health provided adequate
assurance that the costs claimed by the Town were allowable for reimbursement
by EPA.




                                 11
                                                                                   09-2-0195




                               Chapter 3
       Noncompliance with Reporting Standards
         The Town of Worthington, West Virginia, FY 2004 single audit report did not
         meet the report requirements of OMB Circular A-133. The report did not include:

            •   A finding that the recipient’s accounting system was not adequate.
            •   A corrective action plan from the recipient.
            •   Applicable Federal criteria that would be relevant to findings.
            •   Notes to the Schedule of Federal Expenditures (SEFA)

         As a result, the single audit report did not meeting GAS reporting requirements
         and was not adequate to allow EPA to assess the Town of Worthington’s
         compliance with applicable Federal regulations.

Inadequate Recipient Accounting System Not Reported
         The recipient did not prepare its SEFA, as required by OMB Circular A-133. The
         single auditor informed us that he had to prepare the recipient’s SEFA because the
         project administration contractor’s accounting records were inadequate. The
         single auditor should have reported that the recipient was in noncompliance with
         OMB Circular A-133 and 40 CFR Part 31.20.

         Federal regulations state that the grant recipient is to identify the amounts
         expended under Federal grants and the recipient is to maintain records showing
         how the funds were used. OMB Circular A-133 §.300(a) states that the auditee
         shall identify in its accounts all Federal awards received and expended and the
         Federal programs under which they were received. Section .300(d) states that the
         auditee will prepare appropriate financial statements, including the schedule of
         expenditures of Federal awards. Also, 40 CFR Part 31.20(b)(2) states that
         grantees must maintain records which adequately identify the source and
         application of funds provided for financially-assisted activities.

         In Finding 04-01 in the single audit report, the single auditor reported that the
         project administration contractor did not construct proper journals of original entry
         and related ledgers to allow the Town to prepare its accounting entries correctly.
         As the Town of Worthington is the grant recipient, the Town is responsible for
         preparing the SEFA, not the single auditor or the project administration contractor.
         If the grant recipient is unable to prepare the SEFA, the single auditor should have
         reported this fact as a noncompliance with OMB Circular A-133. If the Town’s
         accounting records were inadequate due to incomplete information from its
         contractor, then the single auditor should have reported that the Town’s accounting
         system did not meet the requirements of 40 CFR Part 31.20.


                                          12
                                                                                        09-2-0195


No Corrective Action Plan
           OMB Circular A-133 requires the recipient to prepare and submit a corrective
           action plan in the single audit report when there are reported findings. The single
           auditor obtained comments from the project administration contractor regarding
           the single audit findings. There was no evidence in the audit documentation or
           single audit report showing that the single auditor: (1) submitted the draft report
           to the Town of Worthington for its response, and (2) obtained a corrective action
           plan from the recipient to include in the single audit report. Because the single
           audit report did not include a corrective action plan from the recipient, the single
           audit report is incomplete.

Federal Criteria Not Cited
           The single audit findings did not contain sufficient applicable Federal criteria that
           would be relevant to findings. The single auditor either included only State-related
           criteria or general citations to Federal criteria, or had no reference to criteria.
           Without properly identifying relevant criteria, EPA will not have all the information
           it needs to adequately resolve single audit findings with the grant recipient.

           OMB Circular A-133 § 510(b) states that audit findings shall be presented in
           sufficient detail for the auditee to prepare a corrective action plan and take
           corrective action, and for Federal agencies and pass-through entities to arrive at a
           management decision. OMB Circular A-133 § 510(b)(2) specifically states the
           criteria or the specific requirement upon which the audit finding is based will be
           included as part of the single audit finding.

           The single auditor reported eight findings in the single audit report. For one
           finding, the single auditor identified State criteria but no Federal criteria (Finding
           04-01). For two other findings, the single auditor generally referenced OMB
           Circular A-133 or OMB Circular A-87 but did not include the specific applicable
           citations (Findings 04-06 and 04-07). For five remaining findings, the single
           auditor did not identify any criteria in his report (Findings 04-02, 04-03, 04-04,
           04-05, and 04-08). Details of our analysis are presented in Schedule 1.

Schedule of Expenditures of Federal Awards Incomplete
           The SEFA, as opined on by the single auditor, did not include required notes.
           OMB Circular A-133 § 310(b)(4) specifically states, at a minimum, the schedule
           shall include notes that describe the significant accounting policies used in
           preparing the schedule. The single auditor asserted that as long as notes were in the
           financial statements, no other notes were required. This point is not correct. The
           recipient should have prepared required notes as part of its auditee responsibilities.

Corrective Actions
           See Chapter 2 for recommended actions to address these issues.


                                             13
                                                                         09-2-0195




                      Chapter 4
Noncompliance with General Standards
The single auditor did not meet continuing professional education (CPE)
requirements, as required by GAS, for the 2-year period covering the single audit.
While the single auditor was able to provide training information to show that he
met State requirements, he did not provide information to show that he met more
stringent Federal requirements. As a result, the single auditor did not fully
comply with professional education requirements required by GAS.

GAS 3.45 requires that each auditor performing work under GAS should
complete, every 2 years, at least 80 hours of CPE that directly enhance the
auditor’s professional proficiency to perform audits and/or attestation
engagements. At least 24 hours of the 80 hours of CPE should be in subjects
directly related to government auditing, the government environment, or the
specific or unique environment in which the audited entity operates. At least
20 of the 80 hours should be completed in any 1 year of the 2-year period.

We reviewed CPE documentation provided by the single auditor. The single
auditor provided CPE information for the period January 1, 2002, to December
31, 2004. For our review, we assessed the training information provided for the
2-year period from January 1, 2003, to December 31, 2004. For this period, the
CPA obtained 20 hours of CPE training in 2003 and 44 hours in 2004, for a total
of 64 hours. The CPA did meet the requirements to have at least 20 hours in each
fiscal year under review, as well as having 24 hours of government-related
training. However, the single auditor did not meet the overall requirement of
having 80 hours of CPE for the 2-year period under review.

We reviewed the single auditor’s peer review report for the fiscal year ending
December 31, 2004, to determine if the reviewer identified any issues regarding
the single auditor’s CPE requirements. While no findings were in the peer
review, in a separate letter to the single auditor the reviewer reported:

       The firm’s quality control policies and procedures require firm
       personnel to meet the professional development requirements of
       both their state board of accountancy and the American Institute of
       Certified Public Accountants. While those requirements were met,
       the courses taken did not provide firm personnel with sufficient
       information about current developments in professional
       accounting standards.

The peer reviewer determined that the single auditor met CPE requirements for
the State of West Virginia. However, the State’s CPE requirements vary slightly


                                14
                                                                                  09-2-0195


         from GAS. The State requires that for a 3-year rolling period, the single auditor
         obtain 120 hours of CPE and at least 20 hours in any individual year. While the
         single auditor met the State’s requirements, he did not meet the 2-year continuing
         professional education requirement for GAS. Therefore, the single auditor may
         not be qualified to perform any Federal audits, including single audits performed
         in accordance with OMB Circular A-133.

Auditee Response and OIG Analysis

         The single auditor did not provide a response to the draft report. Consequently,
         we were unable to assess his quality control procedures to ensure that applicable
         GAS continuing professional education requirements were identified and met.
         Region 3 does not have any responsibilities to address this noncompliance
         finding. The OIG will continue to pursue this matter separately with the single
         auditor.




                                         15
                                                                                                                    09-2-0195


                                                                                                                     Schedule 1

   Town of Worthington Single Audit Findings and Relevant Federal Criteria

                                                         Criteria Identified
             Summary of Findings                             in Report                           Applicable Criteria
04-01 The project administration contractor failed       State of West              40 CFR Part 31.20(b)(1) states the financial
to properly construct accounting records to allow        Virginia’s Public          management systems of other grantees and
the town’s personnel the ability to make                 Service Commission         subgrantees must meet the following standard:
appropriate entries into its journals.                   requires the utilization   Financial Reporting. Accurate, current and
                                                         of its prescribed code     complete disclosure of the financial results of
                                                         of accounts; State         financially assisted activities must be made in
                                                         Auditor requires that      accordance with the financial reporting
                                                         books be maintained        requirements of the grant or subgrant.
                                                         according to its
                                                         standards.
04-02 The town filed inaccurate annual reports           No criteria identified.    40 CFR Part 31.20(b)(1) as presented above.
with the State. The town provided incomplete
books and financial statements to the auditors for
these same years.

The noncompliance was due to the professional
administration contractor’s failure to meet its
contracted responsibility and created major
inaccuracies in the town’s financial filings with the
State.
04-03 The project administration contractor wrote        No criteria identified.    OMB Circular A-87, Attachment B, paragraph
a check to the town to purchase a building.                                         19(c) states that capital expenditures for
However, the building is encumbered by a lien that                                  equipment, including capital assets, and
precludes the purchase.                                                             improvements are unallowable as direct charges
                                                                                    except where approved in advance by the
Further, the contractor was aware that the Town                                     awarding agency.
Council had previously chosen not to enter into this
transaction under the current circumstances. As                                     The grant award documents showed the scope
such, the contractor intentionally controverted the                                 of the grant was to provide funding to design and
will of Council.                                                                    construct a drinking water system to replace the
                                                                                    existing water lines in the Town of Worthington,
This expenditure is disallowed and Region VI                                        replace existing meters, and extend new drinking
should recover these grant and loan monies since                                    water service. There was no specific approval for
the expenditure was unauthorized. Further, Region                                   the purchase of the building, nor was the building
VI should file the appropriate financial forms with                                 identified in the scope of the project. Also, the
the State and Federal agencies showing the money                                    building was to be used for the Town as an
as being recovered.                                                                 administrative office. This type of expense would
                                                                                    normally be treated as an indirect expense.
04-04 There was a 4% matching requirement. In            No criteria identified.    40 CFR Part 31.24(b)(6) states that for matching,
reviewing cash draws, during fiscal years 2001 and                                  costs and third party in-kind contributions
2002, the project administrator paid themselves                                     counting towards satisfying a cost-sharing or
and the engineering firm entirely from EPA grant                                    matching requirement must be verifiable from the
funds without any matching level of effort.                                         records of grantees and subgrantee or cost-type
                                                                                    contractors.
The project administrator also failed to utilize
separate checking accounts for the EPA grant
monies and the matching loan money. Also,
separate checks were not written for expenditures
whereby the matching level of effort could be
recognized and accounted for in journals. As such,
making a determination regarding the matching
level of effort is not possible in the years when loan
monies were in fact drawn and utilized for the costs
of the project.



                                                                  16
                                                                                                                09-2-0195


                                                        Criteria Identified
              Summary of Findings                           in Report                        Applicable Criteria
 04-05 The project administration contractor failed     Auditor stated that     40 CFR Part 31.21(b) states method and
 to properly manage the cash utilized for the           project administrator   procedures for payment shall minimize the time
 payments of the project costs. The contractor drew     violated                elapsing between the transfer of funds and
 cash funds in June 2002, but did not expend the        reimbursement           disbursement by the grantee and subgrantee, in
 funds until February 2003. The contractor also         requirement, but did    accordance with Treasury regulations at 31 CFR
 commingled the EPA grant funds and matching            not cite specific       Part 205.
 funds, as such, it was not possible to isolate that    criteria.
 proper cash management occurred during fiscal
 years 2003 and 2004.
 04-06 As part of initial preparations for the single   OMB Circular A-133,     40 CFR Part 31.20(b)(1), as described
 audit, the single auditor requested expenditure        but no specific         previously, under Finding 04-01.
 information from the project administration            citations.
 contractor. Over the course of the audit, various                              OMB Circular A-133 § 200(a).
 amounts were provided by the contractor.
 Ultimately, the single auditor determined that
 Federal expenditures were $885,759, as presented
 in the SEFA.

 Also, based upon the conversations with the
 contractor, the contractor was unaware of the
 $500,000 threshold and the prior $300,000
 threshold that requires the OMB Circular A-133 to
 apply.
 04-07 The project administration contractor did not    OMB Circular A-87,      OMB Circular A-87, Appendix B, (5), allowability
 budget for the cost of the single audit. The project   but no specific         of single audit costs.
 administration contractor refused to recognize the     citations.
 need to fund audit costs.
 04-08 The project administration contractor did not    No criteria cited.      40 CFR Part 31.36 Procurement :
 perform its contracted duties, as described in its
 contract with the Town of Worthington.                                          (b) Procurement standards. (1) Grantees and
                                                                                subgrantees will use their own procurement
 The single auditor questioned the reasonableness                               procedures which reflect applicable State and
 of the fee paid to the project administration                                  local laws and regulations, provided that the
 contractor, stating that in an arms-length                                     procurements conform to applicable federal law,
 transaction, the reasonable value of their services                            the standards identified in this section, and if
 would not exceed $15,000, although the contract                                applicable, §31.38.
 was for $50,000. The single auditor questioned all
 fees paid to the contractor, totaling $49,965.
                                                                                (2) Grantees and subgrantees will maintain a
                                                                                contract administration system which ensures
                                                                                that contractors perform in accordance with the
                                                                                terms, conditions, and specifications of their
                                                                                contracts or purchase orders.

                                                                                (8) Grantees and subgrantees will make awards
                                                                                only to responsible contractors possessing the
                                                                                ability to perform successfully under the terms
                                                                                and conditions of a proposed procurement.
                                                                                Consideration will be given to such matters as
                                                                                contractor integrity, compliance with public
                                                                                policy, record of past performance, and financial
                                                                                and technical resources.

                                                                                 OMB Circular A-87, Appendix A, § C(1)(a) states
                                                                                 that for a cost to be allowable, it must be
                                                                                 necessary and reasonable for proper and
                                                                                 efficient performance of the Federal award.
Sources: Finding information from single audit report; criteria presented based upon OIG analysis.




                                                                 17
                                                                                                                                         09-2-0195


                                                                                                                                    Schedule 2

             Status of Recommendations and Potential Monetary Benefit

                                                                                                                               POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                           Subject                           Status1        Action Official          Date      Amount      Amount

    2-1       9     Meet with the Town of Worthington officials to             C        Regional Administrator,   04/24/2009
                    ensure that the Town understands OMB Circular                             Region 3
                    A-133 requirements and its obligations to meet
                    these requirements.

    2-2       10    Designate the Town of Worthington as a high-risk           O        Regional Administrator,
                    grant recipient, in accordance with 40 CFR 31.12,                         Region 3
                    should the recipient receive any new EPA awards.
                    As part of this process, Region 3 should conduct a
                    pre-award financial management analysis of the
                    recipient to ensure that the recipient has the ability
                    to manage its grant funds in accordance with
                    Federal regulations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   18
                                                                                        09-2-0195




                                                                                    Appendix A

                           Scope and Methodology
We conducted a quality control review of the single auditor’s audit of the Town of Worthington,
West Virginia, for the fiscal year ended June 30, 2004, signed by the single auditor on
December 29, 2004, and the resulting reporting package that was submitted to the Federal Audit
Clearinghouse dated January 26, 2005. We performed the review using the 1999 edition of the
Uniform Quality Control Review Guide for A-133 Audits, issued by the President’s Council on
Integrity and Efficiency. This guide applies to any single audit subject to the OMB Circular
A-133 and contains the approved checklist of the President’s Council on Integrity and Efficiency
for performing the quality control reviews. We assessed the auditor’s compliance with general,
field work, and reporting standards, as contained in the Government Auditing Standards.

In May 2006, we performed our initial review of the single audit report. We identified potential
issues and contacted the single auditor accordingly. Subsequent requests were made for
additional documentation, which we received from the single auditor. We had to obtain
additional explanations, which had to be in writing as requested by the single auditor. Based on
the explanations, we began our quality control review in October 2007.

The review was performed in accordance with applicable Government Auditing Standards,
issued by the Comptroller General of the United States (June 2003 version). We reviewed the
audit documentation prepared by the single auditor and discussed the audit results with the single
auditor. We also interviewed the EPA grant specialist responsible for awarding the grant to the
Town of Worthington. We interviewed the Region 3 project officer responsible for managing
the Town of Worthington grant. We also contacted the Town of Worthington regarding grant
expenditure information for FY 2003.

We had no prior audit coverage of the Town of Worthington, West Virginia, or the auditor,
Leland O’Neal, CPA.




                                               19
                                                                                         09-2-0195


                                                                                     Appendix B

                               Auditee’s Response


             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          Region III
                                       1650 Arch Street
                                 Philadelphia, PA 19103-2029

                                          April 24, 2009

SUBJECT: Quality Control Review
         Leland O’Neal, CPA
         Single Audit for Town of
         Worthington, West Virginia, for
         Fiscal Year Ended June 30, 2004
         Assignment No. 2007-0582

FROM:       Edward H. Chu /s/
            Acting Assistant Regional Administrator
            for Policy and Management (3PM00)

TO:          Robert Adachi,
             Director of Forensic Audits
             Office of Inspector General (IGA-1-1)

       As requested by your office, we have reviewed the subject audit report and the grantee’s
response to the findings. Our response to the findings is as follows:

Recommendation 2-1: Meet with the Town of Worthington to ensure that the Town
understands OMB Circular A-133 requirements and its obligations to meet these requirements.

Region III Response: Region III concurs with the Office of Inspector General’s (OIG)
recommendation. Region III spoke to Mr. Edward Burley, the Mayor of the Town of
Worthington in October 2008 and April 2009. He understands that the Town is obligated to
meet OMB A-133 requirements. Mr. Burley explained that the Town was put on a bid list by the
state auditor’s office. The Town received a list of qualified auditors in which the Town can
request a proposal or an auditor may call the Town and request a request for proposal (RFP). An
audit committee selected Mr. Leland O’Neal from the list of qualified auditors. The Town
assumed that all of the auditors on the list would possess the required qualifications to conduct a
single audit and the Town clearly hired Mr. Leland O’Neal in good faith.




                                                20
                                                                                          09-2-0195


Recommendation 2-2: Require the Town of Worthington and the single auditor to develop a
plan to address the deficiencies identified in the single audit, including additional planning and
testing that may need to be performed.

Region III Response: Region III does not concur with this recommendation. Since the OIG
report concluded that the single audit report was substandard, Region III does not believe that
addressing deficiencies from the report is the best option. Region III proposes that in accordance
with the Code of Federal Regulations 40 (CFR) 31.12 that Region III classify the Town of
Worthington as high risk, if the town is awarded any future EPA grants, and impose additional
special conditions.

Also, Region III would like the OIG to be aware of some of the specifics regarding this grant.
The Town of Worthington hired Region VI Planning and Development Council to provide grant
management oversight. Region III had the West Virginia Bureau for Public Health (BPH)
perform Grant Management Oversight for this grant. Among other things, BPH reviewed bids
submitted by the contractors and conducted a final inspection on August 31, 2004. In November
2004, BPH submitted the final payment package with a summary of the invoices and proof of
payment. Soon thereafter, Region III received a copy of the Single Audit. After several non-
productive phone calls with the single auditor Region III questioned the quality of the report and
did not place reliance on the findings. Region III reviewed the final payment package carefully
and determined that all of the claimed costs reimbursed to the Town were eligible.

Finding 2-3: Require the Town of Worthington to submit a revised single audit report for FY
2004.

Recommendation: Region III does not concur with this recommendation. First, the grant has
been closed since March 22, 2006. Second, the Town paid Mr. Leland O’Neal for the audit and
according to the EPA project officer, the costs were not reimbursed under the grant. Lastly, the
Town of Worthington selected the auditor from a “qualified list” maintained by the state
auditor’s office. Therefore, Region III does not believe it is reasonable to require the Town to
obtain another audit report five years after the fact at its own expense.

        Region III tried to contact Mr. Leland O’Neil, the single auditor, and received a hostile
voice message in return and do not believe further communication will be productive. Therefore,
additional attempts to contact him were not pursued. If you have any questions, or need
additional information, please contact Lorraine Fleury at 215-814-2341 or
fleury.lorraine@epa.gov.


cc: Leah L. Nikaidoh (NWD)
    Lisa McCowan (3AI00)
    Bruce Smith (3WP50)




                                                 21
                                                                       09-2-0195


                                                                    Appendix C
                                      Distribution

EPA Headquarters

Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Inspector General

EPA Region 3

Acting Regional Administrator
Acting Assistant Regional Administrator for Policy and Management
Director, Grants and Audit Management Branch
Regional Audit Follow-up Coordinator
Regional Public Affairs Officer

Other

Mayor, Town of Worthington, West Virginia
Single Auditor




                                            22
